Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


   COMMUNITY MEDICAL AND
  DENTAL CARE, INC., DID NOT
    MEET SELECT FINANCIAL
 PERFORMANCE MEASURES AND
    CLAIMED UNALLOWABLE
 FEDERAL GRANT EXPENDITURES


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                      November 2012
                                                      A-02-11-02001
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing. These grants
are commonly referred to as “section 330 grants.”

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Capital Improvement Program (CIP) and
Increased Demand for Services (IDS) grants.

Community Medical and Dental Care, Inc. (CMADC), is a nonprofit, community-based medical
care provider that operates health centers in Spring Valley and Monsey, New York. CMADC
provides primary and specialty care services to medically underserved individuals and is funded
primarily by patient service revenues, Federal grants, and State funds.

CMADC received approximately $25,582,060 in revenue from all funding sources during
calendar years 2008 through 2010, including approximately $3.2 million awarded by HRSA, of
which CMADC expended $3 million. Of this amount, approximately $2.1 million in section 330
grant funding was awarded to supplement CMADC health center operations. The remaining
$1.1 million was awarded in fiscal year 2009 under the Recovery Act and included
approximately $800,000 under a CIP grant to install two oral health centers and approximately
$300,000 awarded under an IDS grant to create cardiology and nutrition departments.

In an era of increased focus on Federal expenditures and their results, it is critical that Federal
agencies ensure that the organizations they fund are positioned to continue meeting program
objectives and providing services. This is even more critical for agencies that fund programs
intended to provide services to medically underserved and vulnerable populations. HRSA uses
guidance detailed in its Bureau of Primary Health Care Policy Information Notice 2002-18
(PIN 2002-18), dated April 30, 2002, in part to evaluate Community Health Centers operating
under a financial recovery plan through the use of audited financial statements to ensure the
centers’ financial stability and viability.



                                                  i
In addition to PIN 2002-18, which HRSA regularly uses during its internal reviews, HRSA
published “Practice Management Benchmarks” (benchmark guidance), dated March 27, 2002,
which provides additional financial performance measures to evaluate grantee performance.

CMADC must also comply with Federal cost principles in 2 CFR part 230, Cost Principles for
Non-Profit Organizations, the requirements for health centers in 42 U.S.C. § 254(b), and the
financial management system requirements in 45 CFR § 74.21. Pursuant to 2 CFR part 230,
Appendix A, § A.2,g, costs must be adequately documented to be allowable under an award.
Pursuant to 2 CFR part 230, Appendix B, §§ 8.b and 8.m, for salaries and wages to be allowable
for Federal reimbursement, grantees must maintain personnel activity reports that reflect the
distribution of activity of each employee whose compensation is charged, in whole or in part,
directly to Federal awards.

OBJECTIVES

Our objectives were to determine (1) whether CMADC met select HRSA financial performance
measures and (2) whether CMADC’s grant expenditures were allowable.

SUMMARY OF FINDINGS

CMADC did not meet select HRSA financial performance measures. In addition, CMADC
claimed Federal grant expenditures totaling $2,999,659 that were not separately accounted for.
Specifically, CMADC commingled expenditures in its accounting system with other operational
payments and did not maintain personnel activity reports for employees who worked on HRSA
grants. Therefore, we could not determine whether these costs were allowable. CMADC
claimed these costs because of deficiencies in its internal controls and because CMADC officials
were unaware of Federal requirements relating to (1) the accounting of Federal expenditures and
(2) maintaining personnel activity reports that reflect the distribution of activity for each
employee whose compensation is charged, in whole or in part, directly to Federal awards.

RECOMMENDATION

We recommend that HRSA either require CMADC to refund $2,999,659 to the Federal
Government ($2,154,484 related to section 330 grants, $269,523 related to the IDS grant, and
$575,652 related to the CIP grant) or work with CMADC to determine whether any of the costs
that it claimed against these grants were allowable.

COMMUNITY MEDICAL AND DENTAL CARE, INC., COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMADC stated that it has been working with HRSA to
achieve “financial recovery” and described steps that it has taken to improve its financial ratios.
CMADC did not indicate whether it agreed that it (1) had commingled expenditures in its
accounting system with other operational payments and (2) had not maintained personnel activity
reports for employees who worked on HRSA grants. However, CMADC stated that HRSA
never requested CMADC to separately account for expenditures. In addition, CMADC stated

                                                ii
that if HRSA requested a detailed allocation of expenditures for any of CMADC’s funded grants,
CMADC would be able to provide it.

CMADC also provided a technical comment, which we addressed. CMADC’s comments appear
in their entirety as Appendix A.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, HRSA agreed with our recommendation that it require
CMADC to refund $2,999,659 to the Federal Government or work with CMADC to determine
whether any of the costs that CMADC claimed were allowable. HRSA also stated that CMADC
is no longer a recipient of section 330 grant funds.

In our draft report, we recommended that HRSA: (1) impose special award conditions to address
CMADC’s financial performance, (2) ensure that CMADC improves its financial management
system, (3) ensure that CMADC develops policies and procedures for determining the
allowability of expenditures, and (4) educate CMADC officials on Federal requirements for
supporting costs. However, since CMADC is no longer a funded section 330 grantee, we are no
longer making these recommendations.

HRSA’s comments are included in their entirety as Appendix B.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION..................................................................................................................... 1

      BACKGROUND ................................................................................................................. 1
            Health Center Program ....................................................................................... 1
            American Recovery and Reinvestment Act of 2009........................................... 1
            Community Medical and Dental Care, Inc. ........................................................ 1
            Health Resources and Services Administration
             Financial Performance Measures ..................................................................... 2
            Federal Requirements for Grantees .................................................................... 2
            Special Award Conditions .................................................................................. 2

      OBJECTIVES, SCOPE, AND METHODOLOGY ............................................................ 2
             Objectives ........................................................................................................... 2
             Scope ................................................................................................................... 3
             Methodology ....................................................................................................... 3

FINDINGS AND RECOMMENDATION.............................................................................. 4

      SELECTED FINANCIAL PERFORMANCE MEASURES NOT MET ........................... 4
             Days of Expenses Covered by Cash ................................................................... 4
             Current and Cash Ratios ..................................................................................... 4
             Working Capital .................................................................................................. 5
             Net Assets ........................................................................................................... 5
             Accounts Receivable Collections ....................................................................... 6
             Average Payment Period..................................................................................... 6

      GRANT FUNDS NOT SEPARATELY ACCOUNTED FOR AND
       NOT SUPPORTED WITH DOCUMENTATION .......................................................... 6
             Federal Requirements ......................................................................................... 6
             Expenditures for Section 330 Grants .................................................................. 7
             Expenditures for the Increased Demand for Services Grant ............................... 7
             Expenditures for the Capital Improvement Program Grant ................................ 8

      RECOMMENDATION....................................................................................................... 8

      COMMUNITY MEDICAL AND DENTAL CARE, INC., COMMENTS ........................ 8

      OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................... 9

      HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS
       AND OFFICE OF INSPECTOR GENERAL RESPONSE ............................................. 9



                                                                    iv
APPENDIXES:

    A: COMMUNITY MEDICAL AND DENTAL CARE, INC., COMMENTS

    B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                               v
                                      INTRODUCTION

BACKGROUND

Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under section 330 of the Public Health Service Act, codified at 42 U.S.C.
§ 254b. The Health Center Program provides comprehensive primary health care services to
medically underserved populations through planning and operating grants to health centers.
Within the U.S. Department of Health and Human Services (HHS), the Health Resources and
Services Administration (HRSA) administers the program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing. These grants
are commonly referred to as “section 330 grants.”

American Recovery and Reinvestment Act of 2009

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Increased Demand for Services (IDS) and
Capital Improvement Program (CIP) grants.

Community Medical and Dental Care, Inc.

Community Medical and Dental Care, Inc. (CMADC), is a nonprofit, community-based medical
care provider that operates health centers in Spring Valley and Monsey, New York. CMADC
provides primary and specialty care services to medically underserved individuals and is funded
primarily by patient service revenues, Federal grants, and State funds. CMADC also controls
several affiliated organizations (e.g., Rockland Community Development Council).

CMADC received approximately $25.6 million in revenue from all funding sources during
calendar years (CY) 2008 through 2010, including approximately $3.2 million awarded by
HRSA, of which CMADC expended $3 million. Specifically:

   •   During CYs 2008 through 2010, HRSA awarded CMADC approximately $2.1 million in
       section 330 grant funds to supplement CMADC’s health center operations.

   •   During CY 2009, HRSA awarded CMADC approximately $ 1.1 million in Recovery Act
       funds. Approximately $800,000 of this amount was awarded under a CIP grant to install


                                               1
        two oral health centers, and approximately $300,000 was awarded under an IDS grant to
        create cardiology and nutrition departments. 1

Health Resources and Services Administration Financial Performance Measures

In an era of increased focus on Federal expenditures and their results, it is critical that Federal
agencies ensure that the organizations they fund are positioned to continue meeting program
objectives and providing services. This is even more critical for agencies that fund programs
intended to provide services to medically underserved and vulnerable populations. HRSA uses
guidance detailed in its Bureau of Primary Health Care Policy Information Notice 2002-18
(PIN 2002-18), dated April 30, 2002, in part to evaluate Community Health Centers operating
under a financial recovery plan through the use of audited financial statements to ensure the
centers’ financial stability and viability.

In addition to PIN 2002-18, which HRSA regularly uses during its internal reviews, HRSA
published “Practice Management Benchmarks” (benchmark guidance), dated March 27, 2002,
which provides additional financial performance measures to evaluate grantee performance.

Federal Requirements for Grantees

Title 45, part 74, of the Code of Federal Regulations establishes uniform administrative
requirements governing HHS grants and agreements awarded to nonprofit organizations. As a
nonprofit organization in receipt of Federal funds, CMADC must comply with Federal cost
principles in 2 CFR pt. 230, Cost Principles for Non-Profit Organizations (formerly Office of
Management and Budget Circular A-122), incorporated by reference at 45 CFR § 74.27(a).
These cost principles specify the criteria that costs must meet to be reasonable, allocable, and
otherwise allowable. The HHS awarding agency may include additional requirements that are
considered necessary to attain the award’s objectives.

Special Award Conditions

Pursuant to 45 CFR § 74.14, HRSA may impose additional requirements if a grant recipient has
a history of poor performance, is not financially stable, does not have a financial management
system that meets Federal standards, has not conformed to the terms and conditions of a previous
award, or is not otherwise responsible.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine (1) whether CMADC met select HRSA financial performance
measures and (2) whether CMADC’s grant expenditures were allowable.


1
 CMADC’s grant budget periods were as follows: March 1, 2008, through February 28, 2011 (includes three
budget periods), for the section 330 funds; June 29, 2009, through June 28, 2011,which was extended to March 31,
2012, for the CIP funds; and March 27, 2009, through March 26, 2011, for the IDS funds.

                                                        2
Scope

We analyzed CMADC’s financial performance during CYs 2005 through 2009. Our analyses
included a review of select HRSA financial performance measures, including a review of
CMADC’s days of expenses covered by cash, current and cash ratios, working capital, net assets,
accounts receivable collections, and average payment period. We also reviewed costs totaling
$3 million in Federal grant expenditures for the period March 1, 2008, through June 28, 2011.

We performed our fieldwork at CMADC’s administrative office in Monsey, New York, from
November 2010 through April 2011.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed CMADC’s HRSA grant applications, notices of grant award, and supporting
        documentation;

   •    reviewed minutes from CMADC’s board of directors meetings;

   •    interviewed CMADC personnel to gain an understanding of CMADC’s accounting
        system and its internal controls over Federal expenditures;

   •    reviewed CMADC’s financial management procedures related to accounting
        documentation and estimates, preparation of financial reports, payroll, and other financial
        matters;

   •    reviewed CMADC’s independent auditor’s reports and related financial statements for
        CYs 2005 through 2009;

   •    analyzed CMADC’s audited financial statements;

   •    reviewed CMADC’s general ledger and chart of accounts for the period CYs 2008
        through 2010; and

   •    reviewed CMADC employee time and attendance sheets.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.



                                                 3
                               FINDINGS AND RECOMMENDATION

CMADC did not meet select HRSA financial performance measures. In addition, CMADC
claimed Federal grant expenditures totaling $2,999,659 that were not separately accounted for.
Specifically, CMADC commingled expenditures in its accounting system with other operational
payments and did not maintain personnel activity reports for employees who worked on HRSA
grants. Therefore, we could not determine whether these costs were allowable. CMADC
claimed these costs because of deficiencies in its internal controls and because CMADC officials
were unaware of Federal requirements relating to (1) the accounting of Federal expenditures and
(2) maintaining personnel activity reports that reflect the distribution of activity for each
employee whose compensation is charged, in whole or in part, directly to Federal awards.

SELECTED FINANCIAL PERFORMANCE MEASURES NOT MET

To assess CMADC’s performance relative to HRSA’s financial performance measures, we
analyzed CMADC’s (1) days of expenses covered by cash, (2) current and cash ratios,
(3) working capital, (4) net assets, (5) collections of accounts receivable, and (6) average age of
accounts payable.

Days of Expenses Covered by Cash

Measuring days of expenses covered by cash determines whether an organization has enough
cash on hand to cover its operating expenses. This measure is calculated by dividing the yearend
cash balance by the average daily expenses. According to HRSA’s benchmark guidance,
recipients should have 60 to70 days of operating cash on hand. For the 5 years that we analyzed,
CMADC’s cash balances were never greater than 1 day of expenses. 2

Current and Cash Ratios

The current ratio measures an organization’s ability to pay its short-term liabilities (e.g.,
debt) with its short-term assets (e.g., cash, inventory, receivables). The higher the current ratio,
the more likely the organization is able to pay its obligations. A ratio of less than 1 suggests that
the organization may be unable to pay its obligations. The current ratio is calculated by dividing
the organization’s current assets by its current liabilities. Pursuant to PIN 2002-18, HRSA
recommends that grantees maintain a current ratio greater than 1.5. For 2005, 2006, 2007, 2008,
and 2009, CMADC had current ratios of 0.23, 0.32, 0.45, 0.57, and 1.12, respectively. 3



2
  Given that Federal regulations (45 CFR § 74.22) require that grantees minimize the amount of time between the
drawdown of Federal funds and the disbursement of those funds, this particular performance measure should be
applied in situations where a grantee has large amounts of operational funds that are non-Federal grant funds;
therefore, this performance measure would apply to CMADC.
3
 In 2009, as a result of payment agreements with the Internal Revenue Service and the New York State Department
of the Treasury for unpaid taxes, CMADC’s current liabilities were decreased by $2 million, resulting in the positive
working capital and 1.12 current ratio.


                                                         4
In addition, even if an organization’s current ratio is greater than 1.5, it may not be able to pay its
current obligations if the majority of its current assets consist of accounts receivable, especially
if the accounts receivable are not collected in a timely manner. The cash ratio is related to the
current ratio and is commonly used to measure an organization’s liquidity. It can therefore
determine whether, and how quickly, the organization can repay its short-term debt. The cash
ratio is calculated by dividing an organization’s cash balance by its current liabilities. For 2005,
2006, 2007, 2008, and 2009, CMADC’s cash ratios were 0.0012, 0.0005, 0.0001, 0.0003, and
0.003, respectively, indicating that CMADC did not have enough cash on hand to pay its short-
term liabilities.

Working Capital

Working capital is a common measure of an organization’s liquidity, efficiency, and overall
health. Working capital is calculated by subtracting current liabilities from current assets.
Pursuant to PIN 2002-18, HRSA recommends that grantees maintain a positive working capital
greater than 2 months of expenditures.

For the period 2005 through 2008, CMADC did not maintain a positive working capital. At the
end of 2005, CMADC’s working capital was negative $2,658,551, with an average of $19,110 of
expenditures per day. At the end of 2006, its working capital was negative $2,415,302, with an
average of $19,553 of expenditures per day. At the end of 2007, its working capital was negative
$2,262,240, with an average of $19,971 of expenditures per day. At the end of 2008, its working
capital was negative $1,985,413, with an average of $19,597 of expenditures per day. For 2009,
CMADC maintained a positive working capital of $280,259; however, with an average of
$22,198 of expenditures per day, working capital covered only 13 days of expenditures.

Net Assets

An organization’s net assets, an indicator of financial position, is derived by subtracting total
liabilities from total assets. If net assets are negative, CMADC may have difficulty financing its
day-to-day operations. Pursuant to PIN 2002-18, grantees’ net assets should be greater than
zero. CMADC’s net assets were approximately negative $2 million each year for the period
2005 through 2009.

We performed an analysis of CMADC’s unrestricted net assets to measure its reserve position. 4
We calculated the unrestricted net assets ratio by dividing unrestricted net assets by total
expenses. If the ratio is low, the organization lacks unrestricted spendable funds to meet cash
shortages, emergencies, or potential deficit situations; this is indicative of a low reserve position.
For the period 2005 through 2009, CMADC’s unrestricted net assets ratio was negative 0.3.




4
 Unrestricted net assets are the part of a nonprofit organization’s net assets that are neither permanently restricted
nor temporally restricted by donor-imposed stipulations. This measure of reserve position is useful in assessing an
organization’s ability to allocate resources to provide services or particular kinds of services or to make cash
payments to creditors in the future.

                                                           5
Accounts Receivable Collections

The average accounts receivable collection period is the amount of time it takes an organization
to collect its accounts receivable balances. It is calculated by dividing an organization’s yearend
accounts receivable balance by its yearend revenue balance, multiplied by the number of days in
the year. According to HRSA’s benchmark guidance, recipients should collect their accounts
receivable in 65 days or less to maintain a healthy cashflow. For 2005, 2006, 2007, 2008, and
2009, CMADC collected its accounts receivable in an average of 56 days, 56 days, 95 days, 128
days, and 109 days, respectively.

Average Payment Period

The average payment period is the number of days an organization takes to pay its current
liabilities. It is a measure of the organization’s efficiency in utilizing its resources. Pursuant to
PIN 2002-18, recipients should pay their current liabilities in 60 days or less. For 2005, 2006,
2007, 2008, and 2009, CMADC paid its current liabilities in an average of 181 days, 182 days,
206 days, 235 days, and 102 days, respectively.

GRANT FUNDS NOT SEPARATELY ACCOUNTED FOR AND
NOT SUPPORTED WITH DOCUMENTATION

Federal Requirements

HRSA regulations governing the Health Center Program require that all grant payments be
accounted for separately from all other funds, including funds derived from other grant awards
(42 CFR § 51c.112(a)). To help ensure that Federal requirements are met, grantees must
maintain financial management systems in accordance with 45 CFR § 74.21. These systems
must provide for accurate, current, and complete disclosure of the financial results of each HHS-
sponsored project or program (45 CFR § 74.21(b)(1)) and must ensure that accounting records
are supported by source documentation (45 CFR § 74.21(b)(7)). Grantee records must
adequately identify “the source and application of funds for HHS-sponsored activities,”
including “information pertaining to Federal awards, authorizations, obligations, unobligated
balances, assets, outlays, income and interest” (45 CFR § 74.21(b)(2)). Grantees also must have
written procedures for determining the allowability of expenditures in accordance with the
provisions of the applicable Federal cost principles and the terms and conditions of the award
(45 CFR § 74.21(b)(6)). Paragraph 4 of the Program Terms in CMADC’s IDS Notice of Grant
Award includes a provision that recipients must account for each Recovery Act award and
subaward separately and draw down funds on an award-specific basis. The grant term and
condition specifically prohibits the pooling of Recovery Act award funds with other funds for
drawdown or other purposes.

Pursuant to 2 CFR part 230, Appendix A, § A.2,g, costs must be adequately documented to be
allowable under an award. Pursuant to 2 CFR part 230, Appendix B, §§ 8.b and 8.m, for salaries
and wages to be allowable for Federal reimbursement, grantees must maintain personnel activity
reports that reflect the distribution of activity of each employee whose compensation is charged,
in whole or in part, directly to Federal awards. These reports must be signed by the employee or

                                                  6
a supervisory official having firsthand knowledge of the employee’s activities, be prepared at
least monthly, coincide with one or more pay periods, and account for the total activity of the
employee.

Expenditures for Section 330 Grants

We could not determine the allowability of $2,154,484 in section 330 grant expenditures that
CMADC claimed from March 2008 through February 2011. CMADC did not separately account
for its section 330 grant expenditures and commingled these expenditures in its accounting
system with other operational payments, including payments related to Medicaid, Medicare,
Recovery Act, and third-party reimbursements. We therefore were unable to determine which
expenditures were attributable to the section 330 grant. Furthermore, CMADC did not maintain
personnel activity reports for employees who worked on the grant.

We could not determine whether these claims for reimbursement were allowable because
CMADC did not set up its accounting system according to 45 CFR §§ 74.21(b)(1) and (2), which
require systems to provide accurate, current, and complete disclosure of financial results and
records that identify the source and application of funds for HHS-sponsored activities. In
addition, CMADC did not have written procedures for allocating and separately accounting for
expenditures including salaries in accordance with the provisions of the applicable Federal cost
principles (45 CFR § 74.21(b)(6)).

CMADC officials stated that they were unaware of the Federal accounting system requirements
that would ensure that expenses are segregated and therefore attributable to the section 330 grant.
Furthermore, they stated that they were unaware that CMADC was required to maintain
personnel activity reports for employees who worked on Federal awards.

Expenditures for the Increased Demand for Services Grant

We could not determine the allowability of $269,523 in IDS grant expenditures that CMADC
claimed from March 27, 2009, through March 26, 2011. CMADC did not separately account for
its IDS grant expenditures and commingled these expenditures in its accounting system with
other operational payments. Specifically, CMADC’s general ledger did not have a separate
account that identified IDS grant expenditures, so we were unable to determine which
expenditures were attributable to the IDS grant. Furthermore, CMADC did not maintain
personnel activity reports for employees who worked on the grant as required in 2 CFR part 230,
Appendix B, §§ 8.b(2) and 8.m.

We could not determine whether these claims for reimbursement were allowable because
CMADC did not set up its accounting system according to 45 CFR §§ 74.21(b)(1) and (2) and
the grant terms and conditions, which require systems to provide accurate, current, and complete
disclosure of financial results and records that identify the source and application of funds for
HHS-sponsored activities and, in the case of Recovery Act funds, require the funds not be
pooled. In addition, CMADC did not have written procedures for allocating and separately
accounting for expenditures including salaries in accordance with the provisions of the
applicable Federal cost principles and the terms and conditions of the award (45 CFR

                                                7
§ 74.21(b)(6)). CMADC officials stated that they were unaware of the Federal accounting
system requirements that would ensure that expenditures are segregated and therefore
attributable to this particular grant, as well as the specific Recovery Act requirement that these
IDS funds could not be pooled. Furthermore, the officials stated that they were unaware of the
requirement to maintain personnel activity reports for employees who worked on Federal
awards.

Expenditures for the Capital Improvement Program Grant

We could not determine the allowability of $575,652 in CIP grant expenditures that CMADC
claimed from June 29, 2009, through June 28, 2011. Specifically, CMADC‘s CIP general ledger
account did not have detailed entries supporting that CIP grant expenditures and non-CIP grant
funds were commingled, so we were unable to determine which expenditures were attributable to
the CIP grant. In addition, where salary expenses were claimed, CMADC did not maintain
personnel activity reports for employees who worked on the grant as required in 2 CFR part 230,
Appendix B, §§ 8.b(2) and 8.m.

We could not determine whether these claims for reimbursement were allowable because
CMADC did not set up its accounting system according to 45 CFR §§ 74.21(b)(1) and (2), which
require systems to provide accurate, current, and complete disclosure of financial results and
records that identify the source and application of funds for HHS-sponsored activities. In
addition, CMADC did not have written procedures for allocating and separately accounting for
expenditures including salaries in accordance with the provisions of the applicable Federal cost
principles (45 CFR § 74.21(b)(6)). CMADC officials stated that they were unaware both of the
accounting requirements and the requirement to maintain personnel activity reports for
employees who worked on Federal awards.

RECOMMENDATION

We recommend that HRSA either require CMADC to refund $2,999,659 to the Federal
Government ($2,154,484 related to section 330 grants, $269,523 related to the IDS grant, and
$575,652 related to the CIP grant) or work with CMADC to determine whether any of the costs
that it claimed against these grants were allowable.

COMMUNITY MEDICAL AND DENTAL CARE, INC., COMMENTS

In written comments on our draft report, CMADC stated that it has been working with HRSA to
achieve “financial recovery” and described steps that it has taken to improve its financial ratios.
CMADC did not indicate whether it agreed that it (1) had commingled expenditures in its
accounting system with other operational payments and (2) had not maintained personnel activity
reports for employees who worked on HRSA grants. However, CMADC stated that HRSA
never requested CMADC to separately account for expenditures. In addition, CMADC stated
that if HRSA requested a detailed allocation of expenditures for any of CMADC’s funded
projects, CMADC would be able to provide it.




                                                 8
CMADC also provided a technical comment, which we addressed. CMADC’s comments appear
in their entirety as Appendix A.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CMADC’s comments, we maintain that our findings are valid. The terms and
conditions of CMADC’s grant awards stipulated that CMADC was required to be in compliance
with:

    •   applicable cost principles, which include the requirements for after-the-fact
        determinations of employee activity (2 CFR part 230, Appendix B, §§ 8.b(2) and 8.m)
        and

    •   administrative requirements, which include the requirements for grantees to provide
        accurate, current, and complete disclosure of financial results and records that identify the
        source and application of funds for HHS-sponsored activities (i.e., expenditures for
        section 330, IDS, and CIP 5 grants should be segregated and accounted for separately
        from other operational expenditures) (45 CFR § 74.21(b)(1) and (2); 42 CFR §
        51c.112(a)).

Although CMADC contends that it can produce a detailed allocation of expenditures to HRSA, it
failed to provide such an allocation to the OIG for the audit period.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, HRSA agreed with our recommendation that it require
CMADC to refund $2,999,659 to the Federal Government or work with CMADC to determine
whether any of the costs that CMADC claimed were allowable. HRSA also stated that CMADC
is no longer a recipient of section 330 grant funds.

In our draft report, we recommended that HRSA: (1) impose special award conditions to address
CMADC’s financial performance, (2) ensure that CMADC improves its financial management
system, (3) ensure that CMADC develops policies and procedures for determining the
allowability of expenditures, and (4) educate CMADC officials on Federal requirements for
supporting costs. However, since CMADC is no longer a funded section 330 grantee, we are no
longer making these recommendations.

HRSA’s comments are included in their entirety as Appendix B.




5
 Although CMADC maintained a separate account for the CIP grant, the account included both CIP and non-CIP
expenditures.

                                                     9
APPENDIXES
                                                                                                                                  Page lof2


APPENDIX A: COMMUNITY MEDICAL AND DENTAL CARE, INC., COMMENTS 





                         ExECUTIVE OFFI CE
                                                •
                 COMMUNlTY M EDICAL & DENTAL CARE, INC.
                                                                                                                Mendel Hoffman
                                                                                                                President / CEO
                                                                                                            Joel Allen, M.D. FACOG
                                                                                                              Chie/MedicalOfficer
                                                                                                           Dr. G . Benyaminov DOS
                                                                                                               Chie/DentolOfficer
                                                                                                                      Chana Amsel
                                                                                                                Chie/FiscalOfficer
                                                                                                                     Shaindy Milner
              June 21, 2012                                                                                 Ch ie/Operating Officer

                                                                                                                40 lio~rt Pitt Drive
             James P. Edert                                                                                      Monsey. NY iDgP
                                                                                                              (84S1352·68oo ext . 38u
              Regional Inspector General for Audit Services 

                                                                                                                 Fa~ (845) 42.S·12.28
              Office ofthe Inspector General 
                                                                mhoffman@cmadc.COOl
              Region II 

              26 Federal Plaza, Room 3900
              New York, NY 10278                                                                                        PIIIMAIIY CAllI!
                                                                                                                     Internal Medicine 

                                                                                                                        Pediatrics 

             RE: Report Number: A-02-11-02011                                                                         Family Medicine 

                                                                                                                Adolescent Medicine 

                                                                                                                Allergy/Immunology 

             Dear Mr. Edert:                                                                                              Dermatology
                                                                                                                 Gastroenterology 

                                                                                                                Nntrition Counseling 

             Upon review of the above mentioned report, please co nsider our comments                             Ophthalmology 

             stated below:                                                                                                 PIHliatry 

                                                                                                                           Urology 

                                                                                                                       Endocrinology 

             • Each year that CMADe was awarded a 330 gra nt, HRSA, the fund ing agency,                              Speeeh 111erapy
             provided a Notice of Grant Award (NGA) sta tin g CMADe's agency budget for
                                                                                                               WOM...N '.      c..... ~ CENnt!
             its entire scope of services, and listed all the sources of funding to cover the
             entire budget. The 330 grant was listed as one source. There was no detail on
             the NGA (nor w as it requested in any grant application) of spe cific expen ses
             being allocated to the 330 grant. HRSA representatives neve r requested or                               Cener.ti Denlist!)'
                                                                                                                         Or.il SU'E"!),
             required our health center to separate expenses by fundin g sourc e. We had                              rediatric Dentis.try
             several site visits and several T& TA cons ultants over the years and it was
             never requested of us. Our certi fied audits have been submitted to HRSA and                              PROJ ECTOH R
                                                                                                           0101'1"   O~   .EH...VIOItAL HULT H
             never included allocation of expenses by fundin g source. HRSA never                               Adolcw.'nt Counseling 

             criti cize d this and never requested such allocations.                                              Family Counseling 

                                                                                                                Indhidual Counseting 

                                                                                                                     PsJ.-.:hiatric SeM<:<:S 

             ... HRSA project officers and representatives provided continuous guidance on
                                                                                                                 C "'&I! M ...N"'O I MftlT
             all aspects of the program and never mentioned such a r equirement.
                                                                                                                     Medio.aid. Medica",. 

                                                                                                                      & Medio.aidllMO 

             ... When we we r e instructed to open a separate checking account in which                       Entitkmcnt & Enrollment 

                                                                                                                  Medical R.fcmtls 

             HRSA grant funding witt be directly deposi ted, we were speci fic ally instructed             Educational Scrttning Progr.>~ 

                                                                                                              SoclaJ 1< Human Servi<:es 

             by our project officer w ho served at that time, not to use the gra nt                           Housing& EmplO)m(nt 

                                                                                                          Youth 1< S(mior Citizens Program 



                A,         We Care for You & We Care About You                       ~                                     Li<rnoe<Illy
                                                                                                               New yOt\< Slate D<poruncnt
                                                                                                                <>f l!e&hh &l.... iJ:i'lMl'd
         Monso:y Fanlily Medical Ce nfer ... 4<l Robert Pit! O<-ive Moll5ey. NY 10952 (845) 352.1>800 
                   ... F«1onlly
 Be" Gi"""" Spring Val~y Fatnlly ~ical Center ... 175 Route 59 Spt-ing Valley. NY loon (845) 426-5600 
              Quolinod lloaltb C<ot...
                                 Dental Cau on Wheels ... (645) 352·6600 

                                                                                                     Page 2 of2




James P. Edert, Office of Inspector General                                        June 21, 2012
A-02-ll-020ll                                                                      Page 2



account for eMpenditures, but rather to move the directly deposited fund s into our operations
account and make the disbursements of the funds from our operating account. We followed
those instructions.

• Only in the last few months of our receiving grant funding did the HRSA agency request
support of our drawdown request in th e form of expenditures and related backup, which we
did provide. Prior to that, in all the years of our receiving funding, we did our drawdown
requests without any supporting informatio n. We've always been com pliant with HR5A's
requests and followed their guidelines.

• If HRSA, the funding agency, would request today a detailed allocation of expenditures for
any of our funded grants (330, 105, (lPj, we would be able to provide it.

 • Related to th e financia l ratios reviewe d, ( M ADe was underfunded w hen opening th e 5pring
Valley site and suffered losses the first few years of operating that sit e because the eMtremely
underserved population served was not accustomed to seekin g medical attention for
preventative and chronic ca re. It t ook a few years of patient education and outreach before we
reached a satis factory patient level to financially sustain th e organization. We've been working
closely with HRSA t o achieve financial recovery and are showing Improvement. Over the years
we've greatly impacted and i mproved th e health and care of the population and built a tru st
with the patients who have come to rely on our services. In the years 2008 thru 2011 we've
steadily increased our visits from 53,797 in 2008 to 63,813 in 2009, and to 71,064 in 2010 and
to 77,215 in 2011. We've provided sliding fee discounts to qualifying individuals and served the
t arget population regardl ess of ability t o pay.

• We've made effort s to improve the financial ratios by upgrading our billing software and
enhancing our collection efforts, reducing expenses where pOSSible, closely monitoring
productivity and profitability of providers, and augment ing our outreach efforts. We've also
taken steps to achieve meaningful use and become a patient cent er medical home which will
Increase our revenue and t hereby Improve our financial ratios.

• On page 2 of th e report, in footnote number one, th e grant period of the CIP grant ended on
March 31, 2012, which is an extension of the original period ending June 28, 2011.

If you need any fu rther information, please do not hesitat e to ca ll me.
                                                                                                       Page 1 of3


              APPENDIX B: HEALTH RESOURCES AND SERVICES 

                      ADMINISTRATION COMMENTS 


(/.~      DEPARTMENT OF HEALTH 8> HUMAN SERVICES                                Health Resourc es and Services
                                                                                Administration
~1~.::1
                                                                                Rockville, MD 20857


                                                     2 5 ;012



          TO: 	         Inspector General

          FROM: 	       Administrator

          SUBJECT: 	    OIG Draft Report "Community Medical and Dental Care, Inc., Did Not
                        Meet Select Financial Perfonnance Measures and Claimed Unallowable
                        Federal Grant Expenditures" (A-02-11 -02001)

          Attached is the Health Resources and Services Administration's (HRSA) response to
          the OIG's draft report, "Community Medical and Dental Care, Inc., Did Not Meet Select
          Financial Perfonnance Measures and Claimed Unallowable Federal Grant Expenditures"
          (A-02-11-02001). If you have any questions, please contact Sandy Seaton in HRSA' s
          Office of Federal Assistance Management at (301) 443-2432.


                                                  ~~ ~/cJ'f t;........
                                                    Mary K. Wakefield, Ph.D., R.N.

          Attachment
                                                                                               Page 2 of3




  Health Resources and Services Administration's Comments on the OIG Draft Report­ 

 "Community Medical and Dental Care, Inc., Did Not Meet Select Financial Performance 

           Measures and Claimed Unallowable Federal Grant Expenditures" 

                                   (A-02-11-0200\) 


The Health Resources and Services Administration (HRSA) appreciates the opportunity to
respond to the above draft report. HRSA's response to the Office oflnspector General (OIG)
draft recommendations are as follows:

OIG Recommendation to URSA:

We recommend that HRSA impose special award conditions to address shortcomings in
CMADC's days of expenses covered by cash, current and cash ratios, working capital, net
assets, accounts receivable collections, and average payment period.

HRSA Response:

Community Medical and Dental Care, Inc., (CMADC) is no longer a funded section 330 grantee;
therefore, HRSA is unable to implement this recommendation.

OIG Recommendation to HRSA:

We recommend that HRSA either require CMADC to refund $2,999,659 to the Federal
Government ($2,154,484 related to section 330 grants, $269,523 related to the IDS grant,
and $575, 652 related to the elP grant) or work with CMADC to determine whether any of
the costs that it claimed against these grants were allowable.

HRSA Response:

HRSA concurs with the ~IG's recommendation and upon receipt of the final report, HRSA will
work with CMADC to determine the amount of unallowable costs charged against the HRSA
grants and the amount to be refunded to HRSA

OIG Recommendation to HRSA:

We recommend that HRSA ensure that CMADC (1) develops a financial management
system that provides for the accurate, current, and complete disclosure of the financial
results of each HHS-sponsored project or program and (2) tracks and accounts for each
grant's expenditures separately from other operating expenditures.

HRSA Response:

CMADC is no longer a funded section 330 grantee; therefore, HRSA is unable to implement this
recommendation.
                                                                                                 Page 3 of3




OIG Recommendation to HRSA:

We recommend that HRSA ensure that CMADC develops policies and procedures for 

determining the allowability of expenditures. 


HRSA Response: 


CMADC is no longer a funded section 330 grantee; therefore, HRSA is unable to implement this 

recommendation.


OIG Recommendation to HRSA:

We recommend that HRSA educate CMADC officials on Federal requirements for
supporting salaries and wages and ensure that CMADC maintains personnel activity
reports for each employee who works on Federal awards.

HRSA Response:

CMADC is no longer a funded section 330 grantee; therefore, HRSA is unable to implement this
recommendation.
